                                   ADVISORY




 INDIAN LAND CONSOLIDATION
 ADVISORY
 Mass Appraisals of Indian Lands




Report No.: WR-EV-BIA-0001-2011      June 2011
                  OFFICE OF
                  INSPECTOR GENERAL
                  U.S.DEPARTMENT OF THE INTERIOR


                                                                                                       JUN 1 3 2011
Memorandum

To:                 Meghan Conklin
                    Associate Deputy Secretary

From:               Kimberly Elmore ~~ ~
                    Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:            Advisory - Indian Land Consolidation: Mass Appraisals of Indian Lands
                    Report No. WR-EV-BIA-0001-2011

        This advisory, regarding the U.S. Department of the Interior's (Department) upcoming
endeavor to implement the land consolidation portion of the Cabell settlement, is part of our
ongoing effort to monitor and evaluate the accountability of funding appropriated to the
Department in the settlement. Although the Cabell settlement was approved by Congress and
signed into law, it is not final until the court oversees a notice and hearing process. During this
time, the Department will be conducting tribal consultations regarding Indian land consolidation
strategies. As a result, these advisories serve to provide information to the Department in
advance of implementation efforts.

       We interviewed officials at the Office of the Special Trustee for American Indians, Office
of Appraisal Services (OAS), and the Department Office of Valuation Services. We conducted
our work in accordance with the Quality Standards for Inspections issued by the President's
Council on Integrity and Efficiency.

        In our January 2011 report, "Coordination of Efforts to Address Indian Land
Fractionation" (Report No. WR-EV-BIA-0002-2010), we identified that OAS was understaffed
and unable to keep up with current appraisal workload demands. OAS currently has 12 regions
and is funded for 76 positions, including appraisers, administrative support, and management
positions. As of January 2011, OAS had over 1,000 appraisal reports past due and more than
2,500 open appraisal requests.

       The Appraisal Foundation' (Foundation) reported 2 on the effect of understaffing on
workload in a 2003 evaluation of OAS operations. The Foundation identified the use of mass
appraisal techniques as a possible long-term solution to alleviate staff shortages. Mass appraisal
techniques facilitate more appraisals per staff position because the process involves valuing a
universe of real properties by using standard valuation methodology and employing common

I Established in 1987 by the appraisal professio n in the United States, the Appraisal Foundation is a non -profit organization
dedicated to the advancement of professional valuation.
2 "Evaluation of the Appraisal Organization of the Office of Special Trustee for American Indians, Office of Appraisal Services,"
prepared by The Appraisal Foundation, August 29, 2003




                                Office of Audits, Inspections, and Evaluations I Washington , DC
data. Furthermore, professional appraisal standards3 identify that estimates of value that allow for
statistical review and analysis of results are obtained through the mass appraisal’s systematic
approach and uniform application of appraisal methods and techniques.

        Mass appraisers must develop mathematical models that, with reasonable accuracy,
represent the relationship between property value and supply and demand factors, as represented
by quantitative and qualitative property characteristics. The models may be specified using the
cost, sales comparison, or income approaches to value. Appraisers engaged in mass appraisal are
required to take reasonable steps to ensure that the quantity and quality of the factual data that
are collected are sufficient to produce credible appraisals. Appraisers have a professional
responsibility to ensure that, on an overall basis, models produce value conclusion that meet
attainable standards of accuracy.

       Due to the overwhelming volume of appraisal requests for fractionated tracts, combined
with the nature and complexity of the real estate and ownership, the Foundation found mass
appraisal techniques appropriate for these types of appraisals. The Foundation further
recommended that OAS hire a qualified and experienced mass appraisal organization, firm, or
appraiser to validate the techniques used to ensure compliance with professional appraisal
standards.

OAS implementation of a mass appraisal system

       OAS is currently developing the Mass Appraisal Program System (MAPS). MAPS is a
mathematical mass appraisal model for the appraiser to use in estimating fair market value.
According to OAS, MAPS will both reduce time in appraisal reporting by optimizing appraisal
resources and providing consistency in realty valuation estimates. MAPS updates the
Undivided/Fractionated Appraisal System (U/FAS) currently used by the Great Plains Region.
Both models are used only for tracts with fractional ownership. Since October 2009, the use of
U/FAS has accounted for more than 80 percent of appraisal reports completed in the Great Plains
Region, which is about one-third of all total appraisal reports completed by OAS.

        U/FAS values a fractional interest of a whole tract based on the tract’s income potential,
while MAPS will value the whole tract based on comparable sales data. According to OAS, the
sales comparison approach that MAPS provides more closely aligns the appraiser’s fair market
valuation opinion to the local market. MAPS will also improve efficiency by identifying the
appraisal client as the Secretary of the Interior, or his designee. Currently, appraisal reports
identify a specific BIA office as its client, which restricts use of the report and requires OAS to
complete multiple appraisals of the same property. OAS plans to resolve this issue to enable a
larger audience to use the MAPS generated appraisal reports.

       Appraisal reports generated from U/FAS and MAPS are considered Trust documents
because they include allotment numbers, which are pulled from the Trust Accounting and Asset
Management System (TAAMS), as identifiers. According to OAS, the Bureau of Indian Affairs’

3
 Federal land acquisitions must conform to the Uniform Appraisal Standards for Federal Land Acquisitions, which in turn
conform to the Uniform Standards of Professional Appraisal Practice.



                                                              2
(BIA) Office of the Chief Information Officer initially raised concerns over data security of trust
information stored in a system outside of TAAMS. OAS clarified, however, that neither the
current U/FAS nor the planned MAPS stores trust information within its system. Instead, stored
data consists of historical market data, which is used to identify trends, support work files, and
generate values for probate packages as of certain dates.

        After undergoing validation of the system, OAS plans to deploy MAPS in a phased
approach, beginning with the Great Plains Region and followed by the Rocky Mountain and
Navajo Regions. Validation will involve both OAS and an independent third-party working to
ensure that MAPS complies with professional appraisal standards. While no firm commitments
have been made, OAS is working with the Department Office of Valuation Services to obtain
validation from an entity such as the Appraisal Foundation to conduct the third-party testing.
OAS plans to initiate outreach to the tribes and BIA’s offices once validation is complete.

Timely implementation requires readily available and accurate land characteristic data

        According to OAS, availability of accurate geospatial data will aid the office in
establishing MAPS as its mass appraisal system. Geospatial data identifies land characteristics,
such as pasture or cropland, which is critical for the appraiser to determine market value. Such
geospatial data was historically available through the U.S. Department of Agriculture’s Farm
Service Agency (FSA). With the enactment of the Food, Conservation, and Energy Act of 2008
(P.L. 110-234), however, FSA is prohibited from disclosing the geospatial data it collects.

        Per the legislation, the Secretary of Agriculture may release or disclose information to a
person or any Federal, state, local, or tribal agency working with a U.S. Department of
Agriculture program. Though the Departments of Agriculture5 and Interior have separate
programs aimed to help tribes purchase highly fractionated lands, OAS has stated that it has been
unsuccessful in obtaining approval from local FSA offices to access the geospatial data. Without
the FSA-provided geospatial data, OAS expects that the time needed to deploy MAPS to other
regions will increase because OAS will have to manually input agricultural data from TAAMS.
Further, the TAAMS data is less accurate than FSA’s data because TAAMS does not fully
identify agricultural characteristics.

Recommendations

         1. Analyze MAPS’ application for use in the Cobell consolidation effort.

         2. An independent appraisal organization should evaluate MAPS for compliance with
            professional appraisal standards.

         3. Obtain a legal opinion from the Office of the Solicitor on whether the Agriculture
            Secretary’s disclosure authority (P.L. 110-234) would permit the sharing of geospatial
            date with DOI personnel. If the answer is yes, initiate discussions with the U.S.

5
 Subtitle F, Sec. 5501 of P.L. 110-234 authorizes the Secretary of Agriculture to make and insure loans American Indian tribes
or tribal corporations to purchase highly fractionated land.



                                                               3
           Department of Agriculture’s senior officials regarding OAS’ ability to access FSA’s
           geospatial data of agricultural lands for use in MAPS.

        Please provide a written response to this advisory within 30 days after the conclusion of
the Department’s tribal consultation efforts. The response should detail the Department’s
corrective action plan, as well as targeted completion dates and title(s) of the official(s)
responsible for implementation. Information contained in this advisory will be included in our
semiannual report to Congress. Please contact me at 202-208-5745 if you have any questions.


cc:    Deputy Secretary, U.S. Department of the Interior
       Assistant Secretary – Indian Affairs
       Principal Deputy Special Trustee, Office of the Special Trustee for American Indians
       Director, Bureau of Indian Affairs
       Audit Liaison, Office of the Secretary
       Audit Liaison, Indian Affairs




                                                4
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
